September 27, 2011

DAVID E. WILLIAMS
VICE PRESIDENT, NETWORK OPERATIONS

GISELLE E. VALERA
VICE PRESIDENT, GLOBAL BUSINESS

JOHN T. EDGAR
VICE PRESIDENT, INFORMATION TECHNOLOGY

SUBJECT: Audit Report – Evaluation of Major Transportation Technology
         Initiatives (Report Number NL-AR-11-008)

This report presents the results of our audit of four U.S. Postal Service transportation
technology initiatives (Project Number 10XG023NL000). The objectives of our
self-initiated audit were to assess the planning, implementation, functionality, and
results of four transportation technology initiatives. This audit addresses operational and
strategic risks. See Appendix A for additional information about this audit.

The Postal Service manages a vast transportation network that moves more than 170.6
billion mailpieces through its network at a cost of about $7.9 billion per year. The Postal
Service's goal is to control transportation costs while improving performance of the
transportation network to meet or exceed service requirements. To optimize the
transportation and distribution network and improve operations, the Postal Service
procured the:

   Surface Visibility (SV) system designed to improve the visibility of mail as it moves
    through the plant-to-plant surface transportation network.

   Transportation Optimization, Planning, and Scheduling (TOPS) system designed for
    use as a national transportation network optimization tool that enhances the surface
    and air transportation mail assignment processes.

   Postal Vehicle Service Management System (PVS-MS), designed to provide
    transportation managers with the technological mechanism to monitor, measure, and
    manage heavy fleet assets and associated labor.

   Yard Management System Pilot (YMS Pilot), designed to track vehicles at Network
    Distribution Centers (NDC) within the yard and dock areas.
Evaluation of Major Transportation Technology                                    NL-AR-11-008
 Initiatives


Conclusion

Although the Postal Service expensed more than $300 million on four transportation
technology initiatives, none of them achieved all of their intended results. Specifically:

   The SV technology initiative was generally capable of functioning as planned, but it
    is not fully providing the intended transportation visibility.

   The TOPS technology initiative was implemented for routing air transportation, but
    not for surface transportation (one of its major components) and long-range air route
    planning as originally designed.

   The PVS-MS technology initiative was implemented to monitor driver and fleet
    performance but lacked the necessary connectivity to function properly and was
    discontinued in 2008.

   The YMS Pilot technology initiative was implemented at two locations and improved
    yard efficiency through automation, but it did not replace all required manual
    processes.

These conditions occurred for the following reasons:

   Sponsors and project managers were guided by policies focused on finance and
    budgetary processes but could have benefited from a robust system development
    life cycle policy. However, the Postal Service did not implement such a policy until
    March 2009, years after these four transportation initiatives were planned and
    developed.

   Project managers did not consistently identify significant operational deficiencies for
    corrective action.

   Investment planning policies were not always comprehensively followed.

   Investment planning policies are not as rigorous compared to industry best
    practices.

   Implementation of these transportation technology initiatives did not always have
    support (for example, training, funding, oversight) from all levels of the Postal
    Service.

As a result, these technologies generally did not improve network operations or service
as intended, nor did they provide the anticipated savings. See Appendix B for our
detailed analysis of these topics.




                                                2
Evaluation of Major Transportation Technology                                  NL-AR-11-008
 Initiatives


We recommended the vice president, Network Operations, in coordination with the vice
president, Global Business, and the vice president, Information Technology, when
planning and implementing future transportation technologies:

1. Ensure that Network Operations sponsors and project managers follow the Postal
   Service’s technology solution lifecycle guidelines.

2. Require operational deficiencies be identified for corrective action and addressed
   prior to project closeout.

3. Facilitate the inclusion of robust risk assessment, risk mitigation, system data
   migration, and transition planning best practices into investment planning policies.

4. Ensure establishment and maintenance of the proper line of authority, funding, and
   oversight for key programs by responsible sponsors and management officials.

5. Ensure comprehensive training is provided for employees throughout the
   technology’s life cycle.

Management’s Comments

Management agreed with the majority of our findings and agreed with all of our
recommendations, citing specific, planned corrective actions for each. Management
also cited processes that were put in place after the technologies were developed that
would aid in future technology planning and implementation. Regarding our findings,
management expressed disagreement with our assertion that YMS Pilot technology did
not eliminate all targeted manual processes. They cited the Pittsburgh NDC as an
example and stated that the YMS Pilot technology at that location was not deficient, but
that local management was not complying with the technology’s requirements.

Management also disagreed with some of our monetary impact, specifically identifying
that $1,456,256 of the total $9,323,532 in questioned costs resulted in direct benefits to
the Postal Service. Management also disagreed with our categorization of the expenses
shown in Appendix E. See Appendix F for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and their corrective actions should
resolve the issues identified in the report.

Regarding management’s disagreement with the YMS Pilot finding, we recognize that
the Pittsburgh NDC shortfall example is a result of field non-compliance rather than a
deficiency in YMS. However, as shown in Appendix B of the report, we found the Postal
Service was not able to eliminate all manual yard checks as intended due to
underperformance of the real time locator system (RTLS) component.



                                                3
Evaluation of Major Transportation Technology                               NL-AR-11-008
 Initiatives



Concerning management’s disagreement with portions of the monetary impact, we
agree that the applicable technology (TOPS) provided benefits, but these benefits did
not result in any documented savings as specified in the Decision Analysis Report
(DAR) through the end of fiscal year (FY) 2010, the end of our audit period. Regarding
the OIG’s categorization of the expenses shown in Appendix E as unnecessary, our
determination is based upon the facts that PVS-MS was abandoned and TOPS
provided none of the savings, nor achieved the primary component functionality. These
transportation technology investments were approved primarily because of their
planned return on investment (ROI).

The OIG considers all of the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
   VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Ellis A. Burgoyne
    Paul E. Vogel
    Joseph Corbett
    Cynthia F. Mallonee
    Gene X. Sutch
    Corporate Audit and Response Management




                                                4
Evaluation of Major Transportation Technology                                                         NL-AR-11-008
 Initiatives



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Between FYs 2003 and 2006, the Postal Service spent about $70 million in capital
investments to procure new transportation technologies. Table 1 provides descriptions
of the technologies.

               Table 1. Postal Service – Major Transportation Technologies
    Transportation
                                                                   Description
     Technology

                             The SV technology was designed to capture real-time data at the handling
          SV                 unit, container, and trailer levels using mail processing equipment and
                             wireless handheld scanners within Postal Service facilities.

                             The TOPS technology was designed to be a tactical planning system that
         TOPS                optimizes transportation schedules, distribution tables, and mail routing
                             plans 1 and performs ‘what if’ analyses.

                             PVS-MS technology was an off-the-shelf fleet operations management
                             application with on-board vehicle computer that was designed to provide
                             transportation managers with the technological mechanism to monitor,
                             measure, and manage heavy fleet assets. It was to use global positioning
      PVS-MS 2
                             system (GPS) and wireless technology to transmit data to and from the
                             heavy fleet of cargo vans, tractors, and spotters, and was to assist PVS to
                             remain a viable service provider in the competitive transportation
                             marketplace.

                             YMS Pilot was a modified off-the-shelf application designed to track
                             vehicles from their entrance into the facilities’ yard, when the vehicle is
      YMS Pilot
                             docked, and where the vehicle will be spotted in the yard for redeployment
                             to another facility.


In addition to the initial capital investments, the Postal Service spent more than
$234.6 million in supporting expenses 3 for these systems between FYs 2004 and 2010 as
shown in Table 2. These supporting expenses included salary and benefits, supplies,

1
  The manager component produces mail routing plans and assignment instructions based on the approved and
procured transportation routes developed by the Optimizer. The TOPS manager will be used to perform short-range
planning; in particular, to create the actual planned routes that the plant personnel will use to dispatch the mail
(typically on a weekly basis).
2
  Included as part of tractors/spotters and cargo vans unitary plan.
3
  Network Operations – Finance and Business Analysis (FABA) branch, as of November 2010, provided SV, TOPS,
and YMS Pilot fiscal year total expense information, totaling about $233.6 million. The remaining $1 million in
PVS-MS expenses was obtained from management-approved planning documentation.




                                                         5
Evaluation of Major Transportation Technology                                                      NL-AR-11-008
 Initiatives



services, depreciation (of the initial capital investment), transportation, and information
technology.

                       Table 2. Transportation Technology Initial Capital
                         Investments and Other Expenses Over Time
                             SV                TOPS             PVS-MS            YMS Pilot              Total
Initial Capital
                       $22,544,1714        $23,345,9615 $21,692,0006              $2,512,2967       $70,094,428
Investment:
Other Expenses
by Year
    FY 2004               $3,865,226         $2,359,542            $507,000                   $0
    FY 2005               24,103,512           2,672,832            536,000                    0
    FY 2006               25,063,504           3,769,638                    0        5,575,602
    FY 2007               32,382,971           9,344,034                    0        3,884,968
    FY 2008               36,022,882         18,135,726                     0        1,817,770
    FY 2009               25,729,123         11,915,550                     0          607,546
    FY 2010                 8,785,004        10,973,609                     0          572,020
      Total            $161,979,276         $59,170,931         $1,043,000        $12,457,906       $234,651,113


Total by
                       $184,523,447         $82,516,892        $22,735,000        $14,970,202       $304,745,541
Technology

OBJECTIVES, SCOPE, AND METHODOLOGY

This report presents the results of our audit of the Postal Service’s major transportation
technology initiatives – SV, TOPS, PVS-MS, and the YMS Pilot. The objectives of our
self-initiated audit were to assess the planning, implementation, functionality, and
results of these transportation systems.

During our work, we visited Postal Service Headquarters and the New Jersey and
Pittsburgh NDCs. We reviewed relevant Postal Service policies and procedures, as well
as industry best practices. We interviewed managers and employees as well as
observed and photographed operations. We obtained and reviewed investment policies
4
  As described in the March 2004 Surface Visibility Surface Air Support System Phase III DAR, which was approved
on March 9, 2004.
5
  As described in the April 2005 Transportation Optimization, Planning and Scheduling (TOPS) DAR, which was
approved on May 6, 2005.
6
  As described in the May 2003 2,014 Cargo Vans DAR, which was approved on May 30, 2003 (updated in
September 2003), and in the March 2005 1,406 Tractors and 382 Spotters DAR, which was approved on
April 6, 2005. Management informed us that this technology’s investment for tractors/spotters and cargo vans was
part of the “unitary plan” of the DARs.
7
  At the time of the pilot, both facilities were referred to as bulk mail centers.




                                                        6
Evaluation of Major Transportation Technology                                                    NL-AR-11-008
 Initiatives


and documents such as DARs, Investment Highlights, DAR Compliance Reports, and
meeting minutes. We requested, obtained, and analyzed system documentation from
management and investment capital and supporting expense information from Network
Operations’ FABA branch.

We did not rely on the computer-processed data these technologies recorded for the
Postal Service during its operations to satisfy the audit objectives; rather, we primarily
ascertained the usability and functionality of these technologies’ outputs from interviews
and physical observations. We did corroborate the investment capital and supporting
expense information provided by FABA with the Postal Service’s Enterprise Data
Warehouse.

We conducted this performance audit from February 2010 through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our findings
and conclusions with management in August 2011 and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior OIG audits or reviews directly related to the objective of
this audit. However, the Government Accountability Office (GAO) produced two related
reports on the Postal Service's investment/development of the Intelligent Mail®
program. 8 The GAO reports concluded that:

   Planning was not comprehensive compared to industry best practices and risk
    mitigation plans were not in place.

   All costs were not properly identified for the technology system, including the costs
    of integration with other systems.

   The Postal Service experienced implementation problems and missed milestones.

   The Postal Service experienced difficulty in attributing savings directly to the
    program as opposed to other events.




8
 Intelligent Mail Benefits May Not Be Achieved if Key Risks Are Not Addressed (Report Number GAO 09-599, issued
May 2009) and U.S. Postal Service Needs to Strengthen System Acquisition and Management Capabilities to
Improve Its Intelligent Mail® Full Service Program (Report Number GAO 10-145, issued October 2009).




                                                       7
Evaluation of Major Transportation Technology                                                           NL-AR-11-008
 Initiatives



                                 APPENDIX B: DETAILED ANALYSIS

Technologies Did Not Achieve Intended Results

Overall, we determined that none of the transportation technology initiatives reviewed
achieved all of their intended results. Specifically:

   The SV technology initiative was generally capable of functioning as planned, but it
    is not providing the intended transportation visibility. For example, instead of
    scanning all mail using the device as required, employees, in some cases, were
    manually estimating volumes and thus compromising visibility. In addition, we
    observed that not all intended scans were being performed and there was significant
    scanning non-compliance for the remaining required scans. The following
    summarizes planned functionalities and results of the SV technology.

                  Results Achieved9         SV Major Planned Functionalities/Goals
                                              Performance Improvements
                                            – Asset Identification
                                            – Asset Tracking
                                       10
                                            – Visibility
                                              Decreased Costs
        Unknown through FY 2010,            – Reduced Transportation Costs
         but significant reductions
                                  11
              reported in FY 2011
                          Unknown           – Improved Dock Productivity Tracking and
                                            Performance

   The TOPS technology initiative was implemented for routing air transportation but
    not for surface transportation (one of its major components) and long-range air route
    planning as originally designed. Most importantly, the surface transportation
    component was not functional because of data quality problems with source data
    and output results. Consequently, the Postal Service was unable to maximize
    surface truck loads using this system. The following summarizes planned
    functionalities and results of the TOPS technology.




9
  KEY:      = Planned Functionality/Goal Achieved         = Planned Functionality Not Achieved
Unknown = Additional Audit Work is Needed to Verify Functionality/Goal Achievement.
10
   We determined the SV technology is capable of improving visibility; however, our conclusion is based on the fact
that the recommended scans were not consistently being performed.
11
   According to headquarters’ officials, SV trailer load scans were used to assess trailer utilization and they reduced
contracted miles by 81.3 million through July 2011 by eliminating unnecessary transportation. The OIG plans to audit
SV use and related savings in FY 2012.




                                                           8
Evaluation of Major Transportation Technology                                                             NL-AR-11-008
 Initiatives




             Results Achieved        TOPS Major Planned Functionalities/Goals
                                     – Optimizer component12
                                     – Holiday Planning
                                     – What-if Analyses
                                     – FedEx Block Requests13
                                     – Contingency Planning
                                     – Manager component14
                                     – Air Transportation Planning
                                     – Retirement of National Air and Surface System (NASS)15

    The PVS-MS technology initiative was implemented to monitor driver and fleet
     performance but lacked the necessary wireless connectivity to function properly.
     Consequently, the Postal Service could not effectively utilize the GPS tracking and
     other capabilities to improve fleet efficiency. For example, there were data
     connectivity difficulties between the PVS-MS equipment on the mail hauling vehicles
     and the PVS-MS equipment at the facility. 16 To compensate for these difficulties, the
     drivers’ workday processes had to be adjusted to allow the extra time needed to
     ensure connectivity near the end of their workdays. 17 This technology was
     subsequently abandoned because of wireless connectivity issues.

                           Illustration 1. Installed PVS-MS Tractor-Trailer Device




                              Source: Postal Service Training Manual dated March 2006.




12
   Component was to create a national transportation network through the analysis of various scenarios to determine
the lowest cost transportation network given the service commitment.
13
   TOPS FedEx block planning component was completed and tested, but never used, and a separate technology
was developed for this purpose. The OIG questions the necessity of this new development.
14
   Component was to generate corresponding dispatch plans and routing instructions for the procured transportation.
15
   TOPS replaced the NASS, which was developed in the 1970s to support transportation planning and routing.
16
   We learned PVS-MS’s antenna access points, located at various dock locations, had their transmission ranges
limited to 75 feet to minimize the risks of unauthorized system access.
17
   Some sites’ workaround solution was to have their drivers download the data onto a memory stick, which had to be
uploaded by the supervisor into the local PVS-MS workstation. Other sites had their drivers temporarily park with the
front of their mail hauling vehicles facing the dock to be closer to the antenna locations (later, the drivers would have
to move their vehicles to their proper parking locations).




                                                            9
Evaluation of Major Transportation Technology                                                             NL-AR-11-008
 Initiatives


The following summarizes planned functionalities and r esults of the PVS-MS
technology.
             Results Achieved PVS-MS Major Planned Functionalities/Goals
                                      – Improve Customer Service
                                      – Vehicle Utilization
                                      – Automation of Paperwork
                                      – Reduce Costs and Improve Productivity

    The YMS Pilot technology initiative was tested and implemented at two locations
     (the New Jersey and Pittsburgh NDCs) before planned deployment at other NDCs. 18
     The pilot technology improved yard efficiency through automation, but it did not
     relieve all required manual processes. For example, we found the Pittsburgh NDC
     was not using YMS’s automated trailer move assignment capabilities (a major
     component of YMS) to its fullest extent due to local program compliance issues. As
     a result, only about 30 percent of the Pittsburgh NDC’s moves were automated,
     while the rest were manually input.

         Illustration 2. Spotter Tractors at the
                    New Jersey NDC

         RTLS devices, part of the technology
                     hardware.


                                                           Source: New Jersey NDC, May 2010

     We also determined the YMS Pilot relieved some, but not all, required manual daily
     yard checks to reconcile the trailer locations at the two pilot facilities. 19

     The following summarizes planned functionalities and r esults of the YMS Pilot
     technology:
             Results Achieved         YMS Pilot Technology Major Planned Functionalities/Goals
                                      – Improve Customer Service
                                      – Increase Dock Utilization
                                      – Improve Yard Inventory Accuracy
                                 20   – Eliminate all Manual Yard Checks
                                      – Automate Check-in/Move/Checkout

18
   Deployment at additional facilities was suspended due to a headquarters’ initiative to explore outsourcing of facility
operations.
19
   The temporary poles with RTLS devices, that have to be put on trailers that do not have permanently installed
RTLS devices, many times cause YMS ‘floating’ to occur between adjacent dock and yard spaces. In other words,
the system sometimes had difficulty distinguishing exactly which space a vehicle was parked in the yard and would
report the vehicle was in an adjacent space.
20
   The YMS Pilot relieved some, but not all, required manual daily yard checks to reconcile the trailer locations at the
two pilot facilities.




                                                           10
Evaluation of Major Transportation Technology                                                           NL-AR-11-008
 Initiatives



We concluded there were five primary reasons why these transportation technology
initiatives did not achieve all their intended results. First, we found the sponsors and
project managers were guided by policies focused on finance and budgetary processes
rather than a system development life-cycle policy. Additionally, we determined that
project management did not consistently identify significant operational deficiencies for
corrective action. Third, we concluded investment planning policies were not always
comprehensively followed. Fourth, investment planning policies are not as rigorous as
compared to industry best practices. Finally, we determined implementation of these
transportation technology initiatives did not always have support from all levels of the
Postal Service.

The Handbook F-66. The Handbook F-66, General Investment Policies and Procedures,
mainly addressed finance and budgetary processes and concentrates on system
planning. However, the Handbook F-66 is not a Technical Solutions Life-Cycle (TSLC)
policy, 21 as it does not substantially focus on all as pects of the TSLC including
implementation, functionality, and sustainability of systems. Thus, at the time these four
systems were developed, the Postal Service lacked a robust technology life-cycle
process.

We learned that in March 2009, the Postal Service established the TSLC project
management guidelines. TSLC is the ‘corporate development methodology used to
establish and implement technology solutions’ and describes the phases [of the
lifecycle] that serve as a programmatic guide to project activity and provide a flexible but
consistent way to conduct projects to a depth matching the scope of the project. The
TSLC guidance states, “this policy applies to all Postal Service employees and
contractors that develop, enhance, or maintain technology solutions used by or
developed for the Postal Service.” We reviewed the contents of the project management
guidelines and determined that its provisions provide sponsors and project managers
further guidance in key areas of new project implementation, not addressed in the
Handbook F-66. Had the TSLC policy been established and used before development
of the four transportation initiatives, the sponsors and project managers would have
benefited from its guidelines. See Appendix C for more information about these policies.

Systems Problems Were Not Always Disclosed and Addressed. During our review of
the existing DAR close-out documentation and processes, 22 we found the Postal

21
   In October 2009, the Postal Service issued Handbook AS-805-A - Information Resource Certification and
Accreditation Process, which provides guidance on how information resource certification and accreditation process
is integrated with the information technology (IT) TSLC; it also explains the roles/responsibilities of the functional
business areas (VPs, sponsor, and project managers), and that the business areas need to work jointly with IT
personnel to implement systems.
22
   According to Handbook F-66E, Postal Vehicle Service Management System, project sponsors must prepare and
submit DAR Compliance Reports for review on a quarterly basis for submission to the Postal Service’s Program and
Financial Performance group. These DAR Compliance Reports are required to be submitted from the date of DAR
final approval until 18 months after the project’s completion. According to the USPS Investment Process Overview,
updated January 2011, the Postal Service also refers to the period these compliance reports must be submitted as
the Conversion, Execution, and the Post Deployment Update tollgates.




                                                          11
Evaluation of Major Transportation Technology                                                         NL-AR-11-008
 Initiatives


Service did not consistently identify significant operational deficiencies for corrective
actions. Additionally, sponsors and project managers certified two of these
transportation technology initiatives as completed, although they did not achieve some
planned significant functionalities and goals.

    For example, the TOPS DAR Compliance Report submitted for the third quarter of
     FY 2008 stipulated project completion. However, the report failed to contain that the
     major planned functionality and goal, involving the TOPS Optimizer surface
     component 23 was not achieved (see Figure 1).

                                   Figure 1. TOPS Optimizer Flowchart




                                                                          The major TOPS functionality – the
                                                                          Surface Optimizer – was not
                                                                          achieved.




    In another example, the SV DAR Compliance Report submitted for the fourth quarter
     of FY 2008, indicated project completion in February 2007. However, the report (and
     previously submitted quarterly reports) failed to contain that a major planned
     functionality/goal of improving transportation visibility was not achieved because of
     scanning non-compliance in the field.

Certain Project Planning Best Practices Were Not Utilized. We determined that the
Postal Service did not use certain project planning best practices in implementing the
technologies. Use of these best practices would have helped ensure that the
technologies achieved their intended results. These best practices include:

    Risk assessments.
    Risk mitigation plans.
    System data migration plans.
    Transition planning.


23
   The Optimizer was planned to be the first component to be implemented. It will determine the correct number of
trips, and optimal transportation schedules to meet mail service requirements at minimal cost. Users of the TOPS
Optimizer should also be able to perform long-range (monthly/annual) transportation planning.




                                                         12
Evaluation of Major Transportation Technology                                                             NL-AR-11-008
 Initiatives


We determined that two of the technologies (SV and TOPS) had risk assessments, 24
but we found those assessments were inadequate. We found the SV DAR’s risk
assessment to be inadequate, because it only mentioned three risks 25 that could
impede the successful implementation of a functional system. The risks identified in this
DAR only related to additional technology installed elsewhere in the Postal Service
system in order for SV to function. We also determined the TOPS DAR risk assessment
to be inadequate, because it only identified three risks 26 that could impact the
successful implementation of a functional system. The identified risks did not address
the numerous contributing data sources and the questionable data quality.

We also found the Postal Service did not prepare risk mitigation plans and system data
migration plans, as they were not required in Handbook F-66. In our view, if the Postal
Service implemented these best practices, it would have corrected some of the system
problems during the design and testing phases. For example, the migration of SV and
YMS Pilot system data were not linked; consequently, trailer arrival and departure data
had to be entered twice by dock personnel.

Furthermore, management did not use adequate transition planning when project
managers changed, except for the YMS Pilot Initiative. 27 During our discussions with
management, they stated that technology project managers (sponsors) changed as
many as five times with little or no communication or transition. Management also stated
the transitions negatively affected implementation of these technologies.




24
   Although not required by Handbook F-66 at the time, these two technologies did contain risk assessments.
25
   The SV risk assessment in the DAR, Surface Visibility SASS Phase III, approved March 9, 2004, consisted of one
paragraph: “Successful implementation of Surface Visibility is dependent upon approval of the Mail Processing
Infrastructure (MPI) Phase 2 and the Next Generation Transaction Concentrator. Without this infrastructure in place,
the deployment of Surface Visibility will not be economically feasible. Additionally, if EDL (enhanced distribution label)
is not deployed, tracking of handling units to container nesting would be impossible.” We noted this risk assessment
section of the DAR predated the 2005 version of Handbook F-66 but was inadequate.
26
   The risk assessment in the TOPS DAR investment document consisted of three paragraphs, which identified one
technical risk ranked as ‘medium,’ one operational risk rated as ‘low’ and one integration risk rated as ‘low.’ We noted
this risk assessment section of the DAR predated the 2005 version of Handbook F-66 but was inadequate.
27
   The YMS Pilot project manager remained with the project in spite of changes in assigned position, which provided
the necessary continuity for successful planning efforts.




                                                           13
  Evaluation of Major Transportation Technology                                                            NL-AR-11-008
   Initiatives


  Table 3 summarizes our evaluation of the planning processes and compares the
  processes with industry best practices. For more information, see Appendix D.

                      Table 3. Adequacy of Planning Process by Technology
                                                                                           Requirement
                                                                  PVS-MS                  per Handbook
                                    SV             TOPS                                                          Industry
                                                                 (approved      YMS           F-66 &
       Process Step             (approved       (approved                                                          Best
                                                                  5/2003 &      Pilot          F-66E
                                  3/2004)         5/2005)                                                        Practice
                                                                   3/2005)                paragraphs (as
                                                                                            of 12/2010)
                                                                                                     29
                                                                                     28     F-66 5-5
Risk Assessment                 Inadequate      Inadequate          No          No                                 Yes
                                                                                           F-66E 2-6.14
                                                                                                      30
Risk Mitigation Plan                 No             No              No            No             No                Yes
                                                                         31
Migration Plan                       No             No             N/A            No              No               Yes

Transition Planning                  No             No              No           Yes              No               Yes


  Technology Implementation Was Not Always Supported. Various implementation issues
  inhibited the success of these systems. Management’s line of authority did not provide
  appropriate support for the successful implementation. In addition, we found
  headquarters managers, and sponsors did not always provide the appropriate support
  to ensure program compliance. Specifically:

      Line of Authority/Oversight. At the local level, many of the employees who performed
       scanning for the SV did not work directly for the transportation manager responsible
       for the system - creating a disconnect in the supervision chain. This led to low scan
       rates and a lack of oversight by the appropriate functional area in ensuring
       compliance with SV system input (scanning).

       In addition, the users of PVS-MS did not always have support from all levels of the
       Postal Service. We determined the Postal Service did not require nor provide
       adequate funding for all mail hauling vehicles to be equipped with the system;
       therefore, only newly acquired vehicles in the approved capital investments were
       equipped with the system. Requests for additional funding to equip these mail-
       hauling vehicles with PVS-MS (that were not part of the vehicle purchase DARs)
       were left up to the individual areas. In addition, the Postal Service did not ensure
       field compliance over the systems’ use, and many facilities were not using the
       technology. Also, many facilities did not generate national compliance reports to


  28
     There was no formal risk assessment documentation for the YMS Pilot, and the informal risk assessments only
  addressed the risk of not retaining YMS in the pilot sites and reverting to the prior legacy system.
  29
     Handbook F-66 was updated in 2005 and required an assessment of risk; however, before that update, it was not a
  requirement.
  30
     Although Handbook F-66, Section 5.5, mentions the “mitigating [of] investment risk,” it does not require a mitigation
  plan to be produced as part of the DAR investment planning decision.
  31
     We categorized the data migration plan as not applicable, because no legacy systems were specifically targeted for
  this new technology.




                                                            14
Evaluation of Major Transportation Technology                                                       NL-AR-11-008
 Initiatives


     ensure proper system implementation as PVS-MS was a standalone system at each
     facility.
    Training. The Postal Service employed a ‘train-the-trainer’ format for the initial SV
     deployment, and refresher training was provided. However, as the Postal Service
     added new users, they did not provide formal training. 32 In addition, given the
     system’s complexity, the Postal Service did not procure the appropriate level of
     training and support from the PVS-MS vendor - further impairing the Postal Service’s
     ability to fully implement this technology. 33

Projected Savings and Return on Investment
We determined that none of the technologies achieved all of the intended improvements
in network operations or service, nor achieved intended projected savings or ROI.
Table 4 summarizes our assessment of projected savings and ROI for each of the
technologies.

                    Table 4. Investment, Savings, and ROI by Technology
             Technology                          SV              TOPS            PVS-MS          YMS Pilot
     Total Capital Investment and          $184,523,447        $82,516,892      $22,735,000      $14,970,202
              Expenses
        DAR Projected Savings              $287,132,000       $108,270,000         None 34            N/A35
          DAR Projected ROI                26.6 percent       29.0 percent          None              N/A
            (percentage)
     Claimed Savings at Closeout          $233,667,00036       Unknown37            None              N/A

       Claimed ROI at Closeout             13.5 percent       18.9 percent          None              N/A
       Actual Program Savings
      Achieved (per components/             Unknown38            None 39            None          Unknown40
     methods specified in the DAR)


32
   Management informed us they will develop and deploy a new training program in calendar year 2011.
33
   During a March 2007 meeting that included Headquarters Surface Operations, Vehicle Programs Engineering,
IT Portfolio, and IT Support, the PVS-MS vendor mentioned that clients of its technology usually procure 6 weeks of
hands-on training. The Postal Service obtained only 3 days of training for a limited number of ‘area coordinators.’
34
   PVS-MS, being part of the Tractor and Cargo Van DARs, had no savings or ROI claims specified in these DARs.
35
   Although planning documentation for the YMS Pilot generally asserted savings, documentation was not available or
provided by management to corroborate support for these assertions.
36
   As stated in a revised SV ROI analysis provided by management dated April 17, 2007, and used at closeout.
37
   Postal Service management was unable to locate the supporting cash flow documentation to identify the dollars
claimed at closeout for TOPS.
38
   Savings unknown through FY 2010; however, management asserted that in FY 2011, about 81.3 million miles in
unnecessary transportation has been removed from routes (through July) as a direct result of using data from the SV
program. The OIG plans to audit SV use and related savings in FY 2012.
39
   Some TOPS components generated benefits and savings not specified in the DAR or tracked by the Postal
Service. The specific TOPS component in the DAR for savings generation was not fully enabled as of the close of
FY 2010.
40
   Planning documentation projected a gross savings of $120 million for YMS if implemented in all 21 NDCs, but the
DAR was not signed and did not go past the pilot phase, employed as the Proof of Concept to justify the DAR.




                                                        15
Evaluation of Major Transportation Technology                               NL-AR-11-008
 Initiatives


In the final analysis, the capital investments and expenses associated with these
technologies totaled $304,745,541. The planned (DAR projected) savings for these
technologies totaled $395,402,000; however, the claimed savings at project closeout
totaled only $233,667,000 and were attributable to mandated budget reductions for the
SV technology and not for the actual use of the technology. Further, we were unable to
verify the savings claimed at closeout was realized by the Postal Service, because
supporting documentation was not provided. In the closeout of the SV project,
management attested to the savings but did not have documentation to support the
amounts saved.

We also found the required SV scans added additional workload to those primarily
responsible for performing these scans, and despite this additional workload, budgeted
labor hours were reduced. Regarding the funding for the Postal Service’s investment in
the TOPS transportation initiative, area officials questioned whether the TOPS budget
reductions (to highway contract route funding to pay for this new technology) were
linked to actual opportunities for savings.




                                                16
Evaluation of Major Transportation Technology                                                       NL-AR-11-008
 Initiatives


                                       APPENDIX C: Handbook F-66E and the TSLC
We determined that project managers and sponsors lacked sufficiently robust technology life-cycle policies to aid in
the implementation, functionality, and sustainability of systems, until the TSLC was established in March 2009. Rather,
their efforts focused primarily on meeting the requirements placed upon them by Handbook F-66, which provided them
little guidance on the implementation of functional systems as summarized in the following table. While the technology
implementation process in place before March 2009 provided some direction, we determined the TSLC and its
provisions provide project managers and sponsors further more robust guidance in key areas of new project
implementation not addressed in Handbook F-66. In the following table, we summarized key sections of these two
policies.
         Handbook F-66E                                                             TSLC
DAR                                                                            Initiate and Plan
   System description and benefits.                                              Identify the short- and long-term business needs.
   Alternatives.                                                                 Cost matrices.
   Economics.                                                                    Develop initial project plan.
   Risk assessment.                                                           Technology Solution Requirements Procedures
   Performance metrics.                                                          Develop technology solution requirements.
   Financial summary.                                                         Analysis and Design Procedures
   Recommendation.                                                               Perform a risk assessment.
   Exhibits (Cash flow, list of sites, major assumptions).                       Draft system integration test strategy.
   Project schedule.                                                             Draft Customer Acceptance Testing (CAT) strategy.
   Net present value analysis.                                                   Complete project plan final baseline.
                                                                               Technology Solutions Build Procedures
Review and Approval Process                                                       Building of test, pre-production, and production infrastructure .
                                                                                  Customization.
                                                                                  Implementation of controls.
Validation
                                                                               System Integration Testing Procedures
                                                                                  System integration testing.
DAR Modification                                                               CAT Procedures
DAR Compliance Reports per the Handbook F-66E - [From                             Perform and analyze CAT.
the date of final approval until 18 months after the project’s closeout



                                                                          17
Evaluation of Major Transportation Technology                                              NL-AR-11-008
 Initiatives


(completion), every quarter sponsors must prepare and submit DAR           Unresolved risk mitigation procedures.
Compliance Reports for review.]                                            Signoff by sponsor and portfolio manager (CAT letter).
   Project status of each goal.
   Budget impact of investments and operating variances.




                                                                   18
Evaluation of Major Transportation Technology                                           NL-AR-11-008
 Initiatives



         APPENDIX D: INDUSTRY BEST PRACTICES – PROJECT PLANNING

Our research of the industry best practices identified four key planning attributes that
contribute to the successful acquisition and/or development of technologies. In the
following table, we provide the industry definitions and identify their source.

Risk Assessment                                                   Source

   A risk assessment includes the evaluation,                    As described on page 357 of the
    categorization, and prioritization of risks. “The             Capability Maturity Model®
    evaluation of risks is needed to assign a relative            Integration for Development V.1.3
    importance to each identified risk and is used in             dated November 2010.
    determining when appropriate management attention
    is required.”

Risk Mitigation Plan                                              Source

   Risk mitigation planning is an approach for addressing        As described on page 7 of the
    or mitigating risks identified in the risk assessment. “A     Software Engineering Institute’s
    critical component of risk mitigation planning is             (SEI) Risk Management
    developing alternative courses of action, workarounds,        Framework, dated August 2010;
    and fallback positions, and a recommended course of           and, page 344 of the Capability
    action for each critical risk. The risk mitigation plan for   Maturity Model® Integration for
    a given risk includes techniques and methods used to          Acquisition V.1.3 dated November
    avoid, reduce, and control the probability of risk            2010.
    occurrence; the extent of damage incurred should the
    risk occur (sometimes called a ‘contingency plan’); or
    both. Risks are monitored and when they exceed
    established thresholds, risk mitigation plans are
    deployed to return the affected effort to an acceptable
    risk level. If the risk cannot be mitigated, a
    contingency plan can be invoked. Both risk mitigation
    and contingency plans often are generated only for
    selected risks for which consequences of the risks are
    high or unacceptable. Other risks may be accepted
    and simply monitored.”




                                                  19
Evaluation of Major Transportation Technology                                       NL-AR-11-008
 Initiatives


Data Migration Planning                                       Source

   Migration plans should be used to supplement the          As provided by SEI - Carnegie
    plan when legacy systems are targeted for                 Mellon®.
    replacement. “The migration plan addresses issues
    associated with phasing out legacy systems and
    moving to the new system. These issues include user
    interface compatibility, database compatibility,
    transition support, system interface compatibility, and
    training. By producing and implementing a migration
    plan, a development organization can help a user
    community make the transition in an orderly fashion.”

Transition Planning                                           Source

   The number one contributor to the success of a new        As described by the Procci Change
    initiative is the project manager or sponsor. “Manager    Management Learning Center and
    change, as with organizational change, creates            the Dawson Consulting Group.
    adaptation challenges for all individuals involved.”
    Productivity of the project team suffers and key
    deliverables are often missed or delayed. With
    transition planning, organizations “can ensure that
    teams are equipped with the means to seamlessly
    transition new managers into positions and more
    quickly deliver on their commitments.”




                                                20
Evaluation of Major Transportation Technology                                                 NL-AR-11-008
 Initiatives


                                 APPENDIX E: MONETARY IMPACTS

                 Finding                  Impact Category                                Amount
                  TOPS            Questioned Costs 41                                    $9,323,532

Although we found the total $105.2 million investment costs in the TOPS and PVS-MS
technologies unnecessary as shown in the following chart, we limited our questioned
costs based on OIG policy to those incurred by the Postal Service in FYs 2009 and
2010. Consequently, our monetary impact totals about $9.3 million for the TOPS
technology including $11,915,550 of expenses in FY 2009, less $7,255,083 of
depreciation, and $10,973,609 of expenses in FY 2010, less $6,310,544 of
depreciation.

                                  TOPS – PVS-MS Investment Costs
                                                TOPS              PVS-MS                      Total

     Initial Capital Investment              $23,345,961         $21,692,000                     $45,037,961

     Other Expenses by Year
                  FY 2004                       $2,359,542            $507,000

                  FY 2005                         2,672,832            536,000

                  FY 2006                         3,769,638                    0

                  FY 2007                         9,344,034                    0

                  FY 2008                       18,135,726                     0

                  FY 2009                       11,915,550                     0

                  FY 2010                       10,973,609                     0

                   Total                     $59,170,931          $1,043,000                     $60,213,931


        Total by Technology                  $82,516,892         $22,735,000                   $105,251,892




41
  Questioned costs are costs that are unnecessary, unreasonable, or an alleged violation of law or regulation – in
this case, unnecessary.


                                                         21
Evaluation of Major Transportation Technology                 NL-AR-11-008
 Initiatives


                          APPENDIX F: Management’s Comments




                                                22
Evaluation of Major Transportation Technology        NL-AR-11-008
 Initiatives




                                                23
Evaluation of Major Transportation Technology        NL-AR-11-008
 Initiatives




                                                24
Evaluation of Major Transportation Technology        NL-AR-11-008
 Initiatives




                                                25
Evaluation of Major Transportation Technology        NL-AR-11-008
 Initiatives




                                                26
